No. _______
IN THE SUPREME COURT OF THE UNITED STATES

KIANDRICK ONICK,

Petitioner,
v.
UNITED STATES OF
AMERICA, Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PROOF OF SERVICE
I, Adam Nicholson, do certify that on this date, April 30, 2021, pursuant
to Supreme Court Rules 29.3 and 29.4, I have served the attached Motion for Leave
to Proceed in Forma Pauperis and Petition for a Writ of Certiorari on each party to
the above proceeding, or that party's counsel, and on every other person required to
be served. I have served the Supreme Court of the United States via Federal
Express, priority overnight. The Solicitor General and the petitioner were each
served by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage
prepaid. Assistant United States Attorney Leigha Simonton has been served by
email, per her request.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

Solicitor General
Department of Justice
Washington, D.C. 20530

1

Leigha Simonton
Assistant United States Attorney
1100 Commerce Street, 3rd Floor
Dallas, Texas 75242
leigha.simonton@usdoj.gov

/s/ Adam Nicholson
ADAM NICHOLSON **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 24097045
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886

JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax
**

Counsel of Record

2

